No. 20-6277
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT f—

FILED
Feb 02, 2021
DEBORAH S. HUNT, Clerk

In re: CEDRIC JONES, SR.,
ORDER
Petitioner.

Before: GILMAN, STRANCH, and NALBANDIAN, Circuit Judges.

Cedric Jones, Sr., a Tennessee state prisoner, petitions us for a writ of mandamus, asking
us to: (1) stay his district court proceeding pending the outcome of this petition; (2) recuse the
district court judge in the underlying habeas proceeding; and (3) reassign his case to a specific
district court judge. He also moves to proceed in forma pauperis.
“Mandamus is a drastic remedy that should be invoked only in extraordinary cases where
there is a clear and indisputable right to the relief sought.” United States v. Young, 424 F.3d 499,
504 (6th Cir. 2005). “Traditionally, writs of mandamus [are] used only to confine an inferior court
to a lawful exercise of its prescribed jurisdiction or to compel it to exercise its authority when it is
its duty to do so.” In re Pros. Direct Ins. Co., 578 F.3d 432,437 (6th Cir. 2009) (internal quotation
marks and citation omitted).
We may consider a mandamus petition following the district court’s denial of a motion to
recuse. In re Aetna Cas. & Sur. Co., 919 F.2d 1136, 1143 (6th Cir. 1990) (en banc). A federal
judge “shall disqualify himself in any proceeding in which his impartiality might reasonably be
questioned” or “[w]here he has a personal bias or prejudice concerning a party.” 28 U.S.C.
§ 455(a), (b)(1). But judicial rulings which do not reflect improper favoritism or antagonism do
not constitute grounds for recusal. See Liteky v. United States, 510 U.S. 540, 555-56 (1994).
Prejudice may generally not be established by challenging the correctness of a judicial ruling.
ll

A"

i!

No. 20-6277
-2-

Williams v. Anderson, 460 F.3d 789, 815 (6th Cir. 2006). Additionally, conclusory allegations of
bias or prejudice are insufficient to support recusal. See Green v. Nevers, 111 F.3d 1295, 1304
(6th Cir. 1997) (“The conclusory and unsubstantial allegations in the motions to disqualify
required no action other than the response given in the orders denying these motions.”). Other
than mere speculation, Jones has not pointed to any antagonism supporting his claim of bias or
improper motive. Jones’s conclusory allegations of bias and prejudice by the district court relate
to various judicial rulings by the judges in various actions in which he was a party before the court.
Because his conclusory allegations do not address personal bias or prejudice by the district court
judge, the district court did not abuse its discretion in denying his motion under § 455.
Jones’s complaints against the district court judge for judicial misconduct are likewise not
grounds for recusal here. See Maiscmo v. Haynes, 2014 WL 522588, at *2 (M.D. Tenn. Feb. 5,
2014) (“Judges need not. .. automatically disqualify[] themselves every time their names appear
in a case caption or a complaint.” (internal citation omitted)); see also United States v. MartinTrigona, 759 F.2d 1017,1020-21 (2d Cir. 1985) (holding that a party cannot force recusal merely
by filing a complaint or lawsuit against a judge); Houston v. United States, 2020 WL 861799, at
*2-4 (E.D. Tenn. Feb. 20, 2020). Accordingly, Jones has not shown that the extraordinary remedy
of mandamus is warranted.
The mandamus petition is therefore DENIED. The motion to proceed in forma pauperis

is DENIED AS MOOT.
ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF TENNESSEE
NASHVILLE DIVISION
CEDRIC JONES,
Petitioner,

)
)
)

)
v.
GRADY PERRY, Warden,
Respondent.

No. 3:16-cv-02631

)
)
)
)
)
)

ORDER
Pending before the Court are the following pro se motions filed by Petitioner: Motion for
Judge Barbara D Holmes to Read the Petitioner's Letter (Doc. No. 249); Amended Petition for A Writ
of Mandamus (Doc. No. 250); Application for Leave to Proceed In Forma Pauperis (Doc. No. 251);
Motion to Inspect the Names of the Grand Jurors who Concurred in the Indictment and to Produce
the Grand Jury Minutes and Transcripts (Doc. No. 252); Amended Motion for Judge Barbara D
Holmes to Read the Petitioner's Letter (Doc. No. 253); Amended Motion for Judge Barbara D Holmes
to Read the Petitioner's Letter (Doc. No. 254); Petition for a Writ of Prohibition and a Motion to Stay
the Proceeding of the Lower Court (Doc. No 255); Motion for the Court to Read the Petitioner's
Second Letter (Doc. No. 256); Motion for the Court to Take Judicial Notice of the Testimony
Testified by the Petitioner's Brother during his Sentencing Hearing (Doc. No. 257); Motion for
Barbara D. Holmes to Take Judicial Notice of What the Petitioner’s Former Fired Post-Conviction
Attorney Did and Said (Doc. No. 258); Motion for Barbara D. Holmes to Take Judicial Notice of
What the Petitioner’s Trial Judge Said During Jury Selection Concerning “Elvis” (Doc. No. 259);
Motion for the Court to Read Petitioner’s Second Letter (Doc. No. 260); and Motion for the Court to
N
(

1

Case 3:16-cv-02631 Document 264 Filed 12/21/20 Page 1 of 8 PagelD #: 5668

11

Take Judicial Notice of the Testimony Testified by the Petitioner’s Brother During his Sentencing
Hearing (Doc. No. 261).
I.

Amended Petition for A Writ of Mandamus (Doc. No. 250); Application for Leave to
Proceed In Forma Pauperis (Doc. No. 251); Petition for a Writ of Prohibition and a
Motion to Stay the Proceeding of the Lower Court (Doc. No 255)
Petitioner’s Amended Petition for A Writ of Mandamus (Doc. No. 250), Application for Leave

to Proceed In Forma Pauperis (Doc. No. 251), and Petition for a Writ of Prohibition and a Motion to
Stay the Proceeding of the Lower Court (Doc. No 255) are captioned to the United States Court of
Appeals for the Sixth Circuit. It appears that Petitioner intended for these documents to be filed in
that Court. Indeed, pending before the Sixth Circuit now is a previous Writ of Mandamus filed by
Petitioner pertaining to the same matters raised by Petitioner in Doc. Nos. 250 and 255. See In re:
Cedric Jones. Sr.. No. 20-6277 (6th Cir. filed 11/20/2020).
Accordingly, the Clerk is DIRECTED to term Doc. Nos. 250,251, and 255 and FORWARD
those filings to the United States Court of Appeals for the Sixth Circuit.

n.

Motion for Judge Barbara D Holmes to Read the Petitioner's Letter (Doc. No. 249);
Amended Motion for Judge Barbara D Holmes to Read the Petitioner's Letter (Doc. No.
253); Amended Motion for Judge Barbara D Holmes to Read the Petitioner's Letter
(Doc. No. 254); Motion for the Court to Read the Petitioner’s Second Letter (Doc. No.
256); Motion for the Court to Read Petitioner’s Second Letter (Doc. No. 260)
The Court previously has advised Petitioner that he cannot litigate this action or any action in

this Court by way of notices or letters to the Court. Even though Petitioner is proceeding pro se and
the Court will take into consideration his pro se status when evaluating pleadings and pending
motions, Petitioner still is required to comply with the rules governing this case. These rules exist to
ensure fairness to all parties. As Petitioner well knows, if he wishes for the Court to consider
arguments and evidence, he must raise them by way of timely and properly filed motions. In filing
these five motions (Doc. Nos. 249,253, 254, 256, 260), Petitioner attempts to circumvent the Court’s

2

Case 3:16-cv-02631 Document 264 Filed 12/21/20 Page 2 of 8 PagelD #: 5669

rules by filing motions in which he asks the Honorable Barbara D. Holmes or the Court to read his
letters.
The Honorable Barbara D. Holmes is the Magistrate Judge assigned to this case.
Consequently, Judge Holmes is apprised of all filings in this case. There is no need for Petitioner to
file a motion requesting that Judge Holmes read his filings in this case. Accordingly, Petitioner’s
motions (Doc. Nos. 249,253,254,256,260) are DENIED. Petitioner is again reminded that he should
not attempt to communicate with Judge Holmes or any judge by way of letters and that the Court acts
only on properly-filed motions.
III.

Motion to Inspect the Names of the Grand Jurors who Concurred in the Indictment and
to Produce the Grand Jury Minutes and Transcripts (Doc. No. 252)
Petitioner states that he filed this motion in part “because he objects to the members of the

Grand Jury.” (Doc. No. 252 at 1). Petitioner does not explain why he wants to inspect the names of
the grand jurors, though he states that he raised his objection to the members of the grand jury in his
post-conviction petition. (Id. at 1).1
In his post-conviction petition, Petitioner advanced one claim related to the composition of
the grand jury. He alleged that juror Vanessa Hayes should have been disqualified from service
because she was from Brentwood, Tennessee, which Petitioner alleged is not in Davidson County.
(See Doc. No. 148, Attach. 1 at 21). The post-conviction court denied Petitioner relief on this claim,
finding that “the Court has repeatedly advised the City of Brentwood straddles two counties, Davidson
and Williamson. The juror referenced by the Petitioner lived within Davidson County and was eligible
to sit on the jury.” (Id.)

1 Petitioner states that he raised “this issue” in his post-conviction petition and provides a citation. (Doc. No. 252 at 1).
However, the citation he provides, Doc. No. 234, at PageBD #4833, is to a letter from Petitioner requesting a copy of the
docket sheet and is unrelated to the composition of the grand jury in his criminal case.___________________________
3

Case 3:16-cv-02631 Document 264 Filed 12/21/20 Page 3 of 8 PagelD #: 5670

Defendants are “not normally entitled to the names of the members of the grand juries that
indicted them.” In re Grand Jury Investigation (Diloretok 903 F.2d 180, 182 (3rd Cir. 1990) (citing
United States v. McLemon, 746 F.2d 1098,1122-23 (6th Cir. 1984)); see United States v. Hansel. 70
F.3d 6, 8 (2d Cir.1995); United States v. Barnes. 313 F.2d 325,326 (6th Cir. 1963). The policy behind
the secrecy of jurors’ names is to protect those called for grand jury service from the intimidation or
retaliation of indicted defendants. Diloreto, 903 F.2d at 182. “Only upon a showing of a
‘particularized need’ by a defendant, may a trial court intrude upon the secrecy of the grand jury
proceedings and permit inspection of its minutes.” United States v. Levinson, 405 F.2d 971, 981 (6th
Cir. 1968) (citing Pittsburgh Plate Glass Co. v. United States, 360 U.S. 395 (1959)).
The only reason provided by Petitioner for wanting the names of grand jury members is to
challenge a particular juror’s service. But Petitioner already knows the name of that juror, as he
identified her by name in his petition for post-conviction relief when he argued that she was not a
resident of Davidson County. (See Doc. No. 148, Attach. 1 at 20). The post-conviction court explained
that Petitioner was mistaken and the juror at issue was qualified to serve.
Petitioner has made no showing that any of the grand jurors might not have been legally
qualified and has therefore not demonstrated a particularized need that would warrant disclosure of
the grand jury ballot or concurrence form. Accordingly, Petitioner’s motion for the disclosure of the
grand jury members’ names or a grand jury ballot or concurrence form is DENIED.
Petitioner also seeks the production of the grand jury minutes and transcript on grounds that
the court and the prosecutor presented a “bad” indictment to the grand jury charging the Petitioner
with raping the victim while armed with a deadly weapon. (Doc. No. 252 at 3). Petitioner maintains
that he did not “[take] The Victim At Gun Point Period! nor was he ARMED with a weapon when he
left his home or used a gun to rape his daughter!" (Id.) Petitioner believes that his indictment is void
based on this “misunderstanding.” (Id.)
4

Case 3:16-cv-02631 Document 264 Filed 12/21/20 Page 4 of 8 PagelD #; 5671

The general rule of secrecy of grand jury proceedings has been held to be essential to the
purpose of the grand jury process. United States v. Procter and Gamble Co., 356 U.S. 677, 681 (1958).
There are few exceptions to the general rule. See Fed. R. Crim. P. 6(e)(3). Rule 6(e) provides:
The court may authorize disclosure—at a time, in a manner, and subject to any other
conditions that it directs—of a grand-jury matter:
(ii) at the request of a defendant who shows that a ground may exist to dismiss
the indictment because of a matter that occurred before the grand jury ....
Fed. R. Crim. 6(e)(3)(E)(ii). It has long been the “settled rule” of the Sixth Circuit to require the
defendant to demonstrate a “particularized need” for disclosure of matters occurring before the grand
jury. United States v. Tennyson. 88 F.R.D. 119, 121 (E.D. Tenn.1980) (citations omitted). The
defendant's particularized need for disclosure must outweigh the interest in continued grand jury
secrecy. A “generalized desire” to inspect the grand jury transcripts in the hopes that evidence
beneficial to the defendant will be discovered does not satisfy the particularized need requirement.
Tennyson. 88 F.R.D. at 121. Furthermore, the disclosure of grand jury proceedings is “not proper
merely for discovery purposes.” Id. It is within the trial judge's discretion whether to grant or deny
requests for the disclosure of grand jury proceedings. United States v. Levinson. 405 F.2d 971, 981
(6th Cir.1968).
In addition, an indictment “will not be the subject of independent scrutiny and is given a
presumption of regularity.” United States v. Hart, 513 F. Supp. 657, 658 (E.D.Pa.1981); see also
United States v. Azad, 809 F.2d 291, 295 (6th Cir.1986) (“A presumption of regularity attaches to
grand jury proceedings

”). The “mere speculation of irregularity is not enough to entitle the

defendant to disclosure of grand jury material.” Hart. 513 F. Supp. at 658 (citing United States v.
Budzanoski. 513 F. Supp. 657, 658 (3d Cir. 1972)). Furthermore, as a general matter, there can be no
grounds warranting the dismissal of an indictment for errors in grand jury proceedings “unless such
errors prejudiced the defendants.” Bank of Nova Scotia v. United States. 487 U.S. 250, 254 (1988).
5
Case 3:16-cv-02631 Document 264 Filed 12/21/20 Page 5 of 8 PagelD #: 5672

Petitioner raised a claim based on an alleged “bad indictment” in his petition for post­
conviction relief. (Doc. No. 148, Attach. 1 at 20). According to Petitioner, “the indictment (counts 15) [wa]s fatally defective and ... it was constructively amended illegally.” (Id.) The post-conviction
court denied Petitioner relief on this claim, finding that it was “not colorable” because “[objections
based on defects in the indictment must be raised prior to trial or they are waived.” (Id.) The court
further found that, “in the argument section of the Petitioner's briefing[,] he misstated the law as to
how the State can charge multiple counts of sexual misconduct and make an election of offenses.”

m
“If a § 2254 claim is barred from review because of a violation of a state procedural rule, ‘that
claim is subject to procedural default and will not be reviewed by federal courts unless the petitioner
demonstrates cause and prejudice for the default.’” White v. Tenn.. No. 2:14-CV-116-JRG-MCLC,
2017 WL 4364073, at *7 (E.D. Tenn. Sept. 29, 2017) (quoting Westv. Carpenter. 790 F.3d 693, 697
(6th Cir. 2015)). Here, the Tennessee Court of Criminal Appeals invoked a state procedural rule as
the basis for declining to review Petitioner's challenges to the validity of the indictment and to the
selection of the grand jury. As it appears that Petitioner has procedurally defaulted his federal claims
related to those challenges, the Court finds that Petitioner has not provided grounds to support a
motion to dismiss the indictment that would qualify as a particularized need for the disclosure of
grand jury minutes and transcripts.
To the extent that Petitioner seeks the transcript and minutes of the grand jury to support his
contention that he is actually innocent of aggravated kidnapping and aggravated rape because he was
not “armed with a weapon” at the time of the crimes, the Court previously rejected Petitioner’s claim
of actual innocence in the context of determining whether Petitioner had established cause and
prejudice to excuse his procedural default of his federal judicial bias claim. (Doc. No. at 223 at 1720).

6
Case 3:16-cv-02631 Document 264 Filed 12/21/20 Page 6 of 8 PagelD #: 5673

For the reasons discussed above, Petitioner’s Motion to Inspect the Names of the Grand Jurors
who Concurred in the Indictment and to Produce the Grand Jury Minutes and Transcripts (Doc. No.
252) is DENIED.
IV.

Motions for the Court to Take Judicial Notice of the Testimony Testified by the
Petitioner's Brother during his Sentencing Hearing (Doc. Nos. 257 and 261); Motion for
Barbara D. Holmes to Take Judicial Notice of What the Petitioner’s Former Fired PostConviction Attorney Did and Said (Doc. No. 258); Motion for Barbara D. Holmes to
Take Judicial Notice of What the Petitioner’s Trial Judge Said During Jury Selection
Concerning “Elvis” (Doc. No. 259)
Petitioner asks the Court and Judge Holmes to take judicial notice of the testimony of his

brother during Petitioner’s sentencing hearing. (Doc. Nos. 257 and 261). Petitioner also asks Judge
Holmes to take judicial notice of what Petitioner’s post-conviction counsel “did and said” (Doc. No,
258) and what Petitioner’s trial judge “said during jury selection concerning ‘Elvis’” (Doc. No. 259).
First, Petitioner cannot choose which judge hears his case or rules on his motions. District
judges are appointed by the President of the United States and confirmed by the United States Senate
pursuant to Article III of the Constitution. District judges are appointed for life and cannot be removed
unless impeached. The undersigned is the district judge assigned to this case. Magistrate judges are.
appointed by the district judges of the Court to eight-year terms. They may and often do serve more
than one term. It is common for a magistrate judge to handle pre-trial matters (to supervise discovery,
set schedules, and attempt to settle the case) and other parts of the case assigned to the magistrate
judge by the district judge. As noted earlier, Judge Holmes is the Magistrate Judge assigned to this
case.2 However, the undersigned has not referred any pending motions to the Magistrate Judge. As
such, any motions filed by Petitioner will be heard by the undersigned.
Federal Rule of Evidence 201 governs judicial notice of adjudicative facts. The Rule, in
relevant part, provides that “[t]he Court may judicially notice a fact that is not subject to reasonable

2 Prior to his retirement, the Honorable Joe B. Brown was the Magistrate Judge assigned to his case.
7

Case 3:16-cv-02631 Document 264 Filed 12/21/20 Page 7 of 8 PagelD #: 5674

dispute because it: (1) is generally known within the trial court's territorial jurisdiction; or (2) can be
accurately and readily determined from sources whose accuracy cannot reasonably be questioned.”
Fed. R. Evid. 201(b)(l)-(2).
The items which Petitioner asks the Court to judicially notice—the transcript of Petitioner’s
sentencing hearing (Doc. No. 178, Exh. 10), the letter written by post-conviction counsel Leann Smith
(Doc. No. 160, Exh. C), and a statement made by the trial judge concerning Elvis during Petitioner’s
criminal trial (Doc. No. 178, Attach. 7)—are all part of the existing record in this case. Therefore, it
is not necessary for the Court to take judicial notice of these items.
Petitioner’s commentary regarding the sentencing hearing, his jury selection procedure, and
other matters does not constitute adjudicative facts of which this Court can take judicial notice. ‘“[A]
court cannot notice pleadings or testimony as true simply because these statements are filed with the
court.’” In re Omnicare, Inc. Secs. Litig.. 769 F.3d 455, 468 (6th Cir. 2014) (quoting 21B Charles
Alan Wright et al., Federal Practice and Procedure § 5106.4 (2d ed. 2005)). The Court will consider
all of Petitioner’s allegations and legal argument when ruling on his habeas petition, but the Court
will not take judicial notice of such. Petitioner’s motions for the Court to take judicial notice (Doc.
Nos. 257, 258, 259, 261) are DENIED.
IT IS SO ORDERED.

5).
WAVERLY DrCRENSHAW, JR. V
CHIEF UNITED STATES DISTRICT JUDGE

8

Case 3:16-cv-02631 Document 264 Filed 12/21/20 Page 8 of 8 PagelD #: 5675

Additional material
from this filing is
available in the
Clerk's Office.

